No. 20-1501
IN THE

Supreme Court of the United States
ROMAN CATHOLIC DIOCESE OF ALBANY, et al.
Petitioners,
v.
LINDA A. LACEWELL, Superintendent,
New York Department of Financial Services, et al.
Respondents.
CERTIFICATE OF WORD COUNT
Oren L. Zeve, a member of the bar of this Court, certifies as required by Supreme
Court Rule 33.1(h) that the accompanying Motion to Affirm for Government
Appellees contains 8,286 words excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
Executed on August 23, 2021,
. /s/ Oren L. Zeve
.
Oren L. Zeve
Managing Assistant Solicitor General
New York State Office of the Attorney General
28 Liberty Street
New York, New York 10005

